                                Office of Inspector General
                               Corporation for National and
                                        Community Service




 AGREED-UPON PROCEDURES OF CORPORATION
   FOR NATIONAL AND COMMUNITY SERVICE
  GRANTS AWARDED TO THE NORTH DAKOTA
 WORKFORCE DEVELOPMENT COUNCIL – STATE
  COMMISSION ON NATIONAL AND COMMUNITY
                 SERVICE

                 OIG REPORT 08-10




                         Prepared by:

                   Regis & Associates, PC
                  1400 Eye Street, Suite 425
                   Washington, DC 20005




This report was issued to Corporation management on March 5, 2008. Under the laws
and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
September 5, 2008 and complete its corrective actions by March 5, 2009.
Consequently, the reported findings do not necessarily represent the final resolution
of the issues presented.
                                   COMMUNITY
                                   SERVICE=



                                        March 5,2008



TO:           Kristin McSwain
              Director, AmeriCorps*State and National

              Margaret Rosenberry
              Director, Office of Grants Management


FROM:         Carol Bates CL
              Assistant Inspector General for Audit


SUBJECT:      Report 08-10, Agreed-Upon Procedures of Corporation for National and
              Community Service (Corporation) Grants Awarded to the North Dakota
              Worworce Development Council - State Commission on National and
              Community Service (Commission)


We contracted with the independent certified public accounting firm of Regis and Associates,
P.C. (Regis) to perform agreed-upon procedures in its review of Corporation grants awarded
to the Commission. The contract required that Regis conduct its review in accordance with
generally accepted government auditing standards.

Regis is responsible for the attached report, dated December 18, 2007, and the conclusions
expressed therein. We do not express opinions on the Commission's Consolidated Schedule
of Awards, and Claimed and Questioned Costs; conclusions on the effectiveness of internal
controls; or compliance with laws, regulations, and grant provisions.

Under the Corporation's audit resolution policy, a final management decision on the findings
in this report is due by September 5,2008. Notice of final action is due by March 5,2009.

If you have questions pertaining to this report, please call me at 202-606-9356.

Attachment

Courtesy Copy Distribution: See next page



                   1201 New York Avenue, NW* Suite 830, Washington, DC 20525
                                   *                      *
                     202-606-9390 Hotline: 800-452-8210 www.cncsole,~ov
                                                                                    Freedom C o p
                       Senior Corps * AmeriCorps * Learn and Serve America          Make a Difference. Volunteer.
cc:   James Hirsch Executive Director, North Dakota Workforce
        Development Council – State Commission on National and
        Community Service
      The Honorable Robert Peterson, State Auditor for North
        Dakota
      William Anderson, Deputy Chief Financial Officer
      Sherry Blue, Audit Resolution Coordinator
      Peter R. Regis, CPA, Managing Partner, Regis & Associates, PC
                       AGREED-UPON PROCEDURES OF
            CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                          GRANTS AWARDED TO
           THE NORTH DAKOTA WORKFORCE DEVELOPMENT COUNCIL-
          STATE COMMISSION ON NATIONAL AND COMMUNITY SERVICE


                                                      Table of Contents

                                                                                                                                   Page

Executive Summary ........................................................................................................... 1

       Summary of Results................................................................................................... 1

       Agreed-Upon-Procedures Scope ............................................................................... 2

       Background ............................................................................................................... 2


Independent Accountants’ Report on Applying Agreed-Upon Procedures........................ 3

       Results........................................................................................................................ 4

            Exhibit A: ........................................................................................................... 5

                  Consolidated Schedule of Awards, and Claimed and Questioned Costs ...... 5

                  Subgrantees’ Schedule of Awards, and Claimed and Questioned Costs ...... 5

            Exhibit B: Compliance and Internal Control ..................................................... 6

Appendix A – North Dakota Workforce Development Council - State
             Commission on National and Community Service’s
             Response to the Draft Report

Appendix B – Corporation for National and Community Service’s
             Response to the Draft Report




                                                                    i
                                EXECUTIVE SUMMARY

  Summary of Results
  The Office of Inspector General (OIG), Corporation for National and Community Service
  (Corporation), contracted with Regis & Associates, PC to perform agreed-upon procedures of
  grant cost and compliance for Corporation-funded Federal assistance provided to the North
  Dakota Workforce Development Council - State Commission on National and Community
  Service (Commission). As a result of applying these procedures, we questioned claimed
  Federal-share costs of $8,580. The detailed results of our agreed-upon procedures (AUP) on
  claimed costs are presented in Exhibit A in the Consolidated Schedule of Awards, and
  Claimed and Questioned Costs and the Subgrantees’ Schedule of Awards, and Claimed and
  Questioned Costs. A questioned cost is an alleged violation of a provision of law, regulation,
  contract, grant, cooperative agreement, or other agreement or document governing the
  expenditure of funds; or a finding that, at the time of testing, such cost is not supported by
  adequate documentation.

  Costs Claimed and Questioned Costs. The Commission claimed total grant costs of
  $1,057,930 for the testing period. As a result of testing a judgmental sample of transactions,
  we questioned costs, as shown below.

                                                                           Claimed
                          Award          Funding                            within    Questioned
      Program            Number         Authorized       AUP Period       AUP Period    Costs
AmeriCorps- Formula    06AFHND001       $ 500,000     10/01/06-03/31/07   $ 181,869 $      2,145
AmeriCorps- Formula    03AFHND001         1,207,655   04/01/05-09/30/06       662,339      6,435
 Total AmeriCorps                       $ 1,707,655                       $ 844,208 $      8,580
Administration         06CAHND001           146,181   01/01/06-06/30/07        68,899          -
PDAT                   06PTHND001           164,418   01/01/06-06/30/07       111,199          -
Disability             06CDHND001            49,766   01/01/06-06/30/07        33,624          -
    Total                               $ 2,068,020                       $ 1,057,930 $    8,580

  Details on questioned costs are discussed in the Independent Accountants’ Report on
  Applying Agreed-Upon Procedures.

  Compliance and Internal Control. The detailed results of our agreed-upon procedures
  revealed instances of non-compliance with grant provisions, regulations, or Office of
  Management and Budget (OMB) circulars. Those instances of non-compliance are shown
  below and in Exhibit B in the Compliance and Internal Control section of the Independent
  Accountants’ Report on Applying Agreed-Upon Procedures.

      •   Commission monitoring procedures were not fully performed, or results were not
          always documented;
      •   Inadequate controls over approval and payment of subgrantee costs; and
      •   Lack of adequate procedures to ensure that all program compliance requirements
          were followed.


                                                1
Exit Conference and Responses to Draft Report. The contents of this report were
discussed with the Corporation and the Commission at an exit conference held in Bismarck,
North Dakota, on December 18, 2007. In addition, on January 23, 2008, we provided a draft
of this report to the Commission and to the Corporation for comment. The Commission’s
response to the findings and recommendations in the draft report are included in Appendix A
and summarized in each finding. The Commission did not propose corrective actions except
with regard to Recommendation 2. The Corporation did not respond to the individual
findings and recommendations. Its response is in Appendix B.

Agreed-Upon Procedures Scope
These agreed-upon procedures covered the allowability, allocability, and reasonableness of
financial transactions claimed under funding provided by the Corporation for the following
awards, as well as grant-match costs for grant awards and periods listed below.

                                                                           AUP or
          Program           Award Number           Award Period          Testing Period
     AmeriCorps- Formula     06AFHND001          10/01/06 - 09/30/09   10/01/06 - 03/31/07
     AmeriCorps- Formula     03AFHND001          09/08/03 - 09/30/06   04/01/05 - 09/30/06
     Administration         06CAHND001           01/01/06 - 12/31/08   01/01/06 - 06/30/07
     PDAT                    06PTHND001          01/01/06 - 12/31/08   01/01/06 - 06/30/07
     Disability             06CDHND001           01/01/06 - 12/31/08   01/01/06 - 06/30/07

We also performed tests to determine compliance with grant terms and provisions. We
performed our procedures during the period September 24 through December 18, 2007.

The OIG’s agreed-upon procedures program, dated February 2007, provides guidance for
understanding the Commission; reconciling claimed and matched costs to accounting
records; testing compliance with provisions of the grant; and testing claimed grant and
matched costs. We used judgmental sampling for our testing. These procedures are
described in more detail on page 3, in the Independent Accountants’ Report on Applying
Agreed-Upon Procedures.

Background
The Corporation, pursuant to the authority of the National Community Service Trust Act of
1993, as amended, awards grants and cooperative agreements to State commissions, such as
the North Dakota Workforce Development Council - State Commission on National and
Community Service, and other entities to assist in the creation of full-time and part-time
national and community service programs.

Since its inception in 2002, the Commission has received AmeriCorps grant funds from the
Corporation. The Commission is an independent entity organizationally located within the
Workforce Development Division of the North Dakota Department of Commerce. The
North Dakota Department of Commerce serves as the fiscal agent and provides professional
and support staff to the Commission. The Director of the Workforce Development Division
is also the Director of the Commission.
                                             2
  MANAGEMENT CONSULTANTS &
 CERTIFIED PUBLIC ACCOUNTANTS




                      INDEPENDENT ACCOUNTANTS’ REPORT ON
                        APPLYING AGREED-UPON PROCEDURES

We have performed the procedures described below, which were agreed to by the OIG,
solely to assist the OIG in grant-cost and compliance testing of Corporation-funded Federal
assistance provided to the Commission for the awards and periods listed below. This agreed-
upon procedures engagement was performed in accordance with standards established by the
American Institute of Certified Public Accountants and generally accepted government
auditing standards. The sufficiency of these procedures is solely the responsibility of the
OIG. Consequently, we make no representation regarding the sufficiency of the procedures
described below, either for the purpose for which this report has been requested or for any
other purpose.

             Program            Award Number          Award Period          Testing Period
       AmeriCorps - Formula      06AFHND001         10/01/06 - 09/30/09   10/01/06 - 03/31/07
       AmeriCorps - Formula      03AFHND001         09/08/03 - 09/30/06   04/01/05 - 09/30/06
       Administration           06CAHND001          01/01/06 - 12/31/08   01/01/06 - 06/30/07
       PDAT                      06PTHND001         01/01/06 - 12/31/08   01/01/06 - 06/30/07
       Disability               06CDHND001          01/01/06 - 12/31/08   01/01/06 - 06/30/07

We were not engaged to, and did not perform an examination, the objective of which would
be the expression of an opinion on management’s assertions. Accordingly, we do not express
such an opinion. Had we performed other procedures, other matters might have come to our
attention that would have been reported to you.

The procedures that we performed included:

   •     Obtaining an understanding of the Commission and its subgrantee monitoring
         process;

   •     Reconciling claimed and matched grant costs to the accounting systems of the
         Commission and of selected subgrantees in our sample;

   •     Testing subgrantee member files to verify that the records supported member
         eligibility to serve, and allowability of living allowances and education awards;

   •     Testing the Commission’s and a sample of subgrantees’ compliance with certain
         grant provisions and award terms and conditions; and

   •     Testing claimed and matched grant costs of the Commission and a sample of
         subgrantees to ensure:



       1400 Eye Street, NW, Suite 425, Washington, D.C. 20005 Tel 202-296-7101 Fax 202-296-7284
       i.     Proper recording of the Administrative grant, PDAT grant, Disability grant
              and AmeriCorps grants;

       ii.    That costs were properly matched; and

       iii.   That costs were allowable and supported in accordance with applicable
              regulations, OMB circulars, grant provisions, and award terms and conditions.

Results

As a result of applying the agreed-upon procedures, we questioned Federal-share costs of
$8,580. The questioned costs are summarized in Exhibit A in the Consolidated Schedule of
Awards, and Claimed and Questioned Costs and the Subgrantees’ Schedule of Awards, and
Claimed and Questioned Costs. The compliance and internal control testing results are
summarized in Exhibit B. Issues identified include the following:

   •   Commission monitoring procedures were not fully performed, or results were not
       always documented;

   •   Inadequate controls over approval and payment of subgrantee costs; and

   •   Lack of adequate procedures to ensure that all program compliance requirements
       were followed.




                                            4
                                                                                              EXHIBIT A

           THE NORTH DAKOTA WORKFORCE DEVELOPMENT COUNCIL -
           STATE COMMISSION ON NATIONAL AND COMMUNITY SERVICE

CONSOLIDATED SCHEDULE OF AWARDS, AND CLAIMED AND QUESTIONED COSTS

                                                                           Claimed within   Questioned
             Program                       Award      Authorization         AUP Period        Costs

      AmeriCorps- Formula                06AFHND001        $    500,000       $   181,869       $ 2,145

      AmeriCorps- Formula                03AFHND001            1,207,655          662,339        6,435
        Total AmeriCorps                                       1,707,655          844,208        8,580

      Administration                     06CAHND001            146,181             68,899             -
      PDAT                               06PTHND001            164,418            111,199             -
      Disability                         06CDHND001             49,766             33,624             -
         Total                                             $ 2,068,020        $ 1,057,930       $ 8,580



SUBGRANTEES’ SCHEDULE OF AWARDS, AND CLAIMED AND QUESTIONED COSTS

                                                   Award               Award        Claimed     Questioned
Subgrantees                                        Number              Amount         Costs       Costs

06AFHND001- Formula
Cooperstown Community Activities*             06AFHND0010006 $ 134,985              $ 51,486        $    -
Youthworks                                    06AFHND0010005    46,761                 21,063            -
Jamestown Public School System                06AFHND0010007    51,754                 11,825            -
ND Council on Abused Women                    06AFHND0010004    44,850                  1,006            -
Fargo Moorhead Family YMCA*                   06AFHND0010003   182,483                 80,244        2,145
Grand Forks Public School                     06AFHND0010002    39,167                 16,245            -
  Sub-total                                                  $ 500,000              $ 181,869      $ 2,145

03AFHND001- Formula
Cooperstown Community Activities*             03AFHND0010002 $ 365,351              $ 226,423       $    -
Youthworks                                    03AFHND0010001    121,386                75,168            -
Jamestown Public School System                03AFHND0010007    128,684                71,035            -
ND Council on Abused Women                    03AFHND0010003    100,800                35,299            -
Fargo Moorhead Family YMCA*                   03AFHND0010006     84,378                67,122        6,435
Western Wellness                              03AFHND0010008    259,967               169,780            -
Tri-College                                   03AFHND0010004     97,665                 1,220            -
Grand Forks Public School                     03AFHND0010009     49,424                16,292            -
  Sub-total                                                  $1,207,655             $ 662,339      $ 6,435
      Subgrantees’ Total                                     $1,707,655             $ 844,208      $ 8,580
* Subgrantees selected for AUP testing


                                                       5
                                                                                 EXHIBIT B

       THE NORTH DAKOTA WORKFORCE DEVELOPMENT COUNCIL -
       STATE COMMISSION ON NATIONAL AND COMMUNITY SERVICE

                      COMPLIANCE AND INTERNAL CONTROL ISSUES

Finding 1. Commission Monitoring Procedures were not Fully Performed, or Results
           were not always Documented

The Commission established an onsite monitoring plan, which provided procedures for
subgrantee fiscal and programmatic monitoring. Although the Commission performed
annual fiscal and programmatic onsite monitoring, we found that the monitoring procedures
were not fully performed, or results were not always documented.

For example, on fiscal reviews, the procedures indicated that invoices, receipts, and other
documents must be reviewed to determine the allowability and allocability of charges;
however, the review at Fargo Moorhead Family YMCA showed that the monitoring official
reviewed bank charges but did not review invoices or receipts that support the bank charges.
A review of these documents is necessary to avoid claiming or approving unallowable costs.

Our reviews at Cooperstown Community Activities (Cooperstown) and Fargo Moorhead
Family YMCA (Fargo) showed instances of non-compliance with grant provisions that were
not noted in the monitoring documentation. For example, at Cooperstown, our review
showed instances of missing end-of-term evaluations; lack of orientation documentation; and
late submission of change of status, and exit and enrollment forms. At Fargo, our review
showed applicants recorded service hours before they were fully enrolled as members, which
was also not reported in the monitoring documentation.

The Commission advised that it did not follow its internally developed monitoring guidelines
and policies and procedures because of its excessive workload.

Performance and documentation of the required monitoring procedures and timely
documentation of the onsite monitoring would have provided an opportunity for early
detection and correction of the conditions discussed in Finding 3 with regard to:

       •   Unsupported Claimed Costs;
       •   Missing end-of-term evaluations;
       •   Lack of orientation documentation;
       •   Late submission of change of status, and exit and enrollment forms; and
       •   Service hours were recorded by Applicants before they were fully enrolled as
           members.

Onsite monitoring is a tool that provides subgrantees with timely feedback or advice for
administering the subgrants, and increases the likelihood that costs are claimed in accordance
with grant provisions and cost principles.

                                              6
Criteria

The Commission’s AmeriCorps Site Visit Fiscal Review Workpaper, Section III,
Allowable/Unallowable Costs, states in part that the monitor should:

       Obtain from the sub-grantee, a list of expenditures charged to AmeriCorps
       grant. Randomly select expenditures to review. Have the sub-grantee pull
       the cancelled checks and invoices or timesheets for expenditures. Review
       the expenditures to determine if they are an allowable expenditure under
       the AmeriCorps grant. Document the review of the expenditures….

The AmeriCorps Grant Provisions (2005 ed.), Section V.A., General Provisions,
Responsibilities under Grant Administration, states in part:

       1. Accountability of Grantee.           The grantee has full fiscal and
       programmatic responsibility for managing all aspects of the grant and
       grant-supported activities, subject to the oversight of the Corporation. The
       grantee is accountable to the Corporation for its operation of the
       AmeriCorps Program and the use of Corporation grant funds. The grantee
       must expend grant funds in a judicious and reasonable manner, and it must
       record accurately the service activities and outcomes achieved under the
       grant.

Title 45 CFR § 2541.400(a), Monitoring by grantees, states:

       Grantees are responsible for managing the day-to-day operations of grant
       and subgrant supported activities. Grantees must monitor grant and
       subgrant supported activities to assure compliance with applicable Federal
       requirements and that performance goals are being achieved. Grantee
       monitoring must cover each program, function or activity.

Furthermore, 45 CFR § 2250.80 [sic] [45 CFR Section 2550.80], What are the duties of the
State entities?, states:

       (d) Administration of the grants program. After subtitle C and
       community-based subtitle B funds are awarded, States entities will be
       responsible for administering the grants and overseeing and monitoring
       the performance and progress of funded programs.

       (e) Evaluation and monitoring. State entities, in concert with the
       Corporation, shall be responsible for implementing comprehensive, non-
       duplicative evaluation and monitoring systems.




                                              7
Recommendations

We recommend that the Corporation ensure and verify that the Commission:

   1.a. Follows its internally developed guidelines for subgrantee monitoring and performs
        the procedures required by its guidelines.

   1.b. Documents the results of monitoring procedures performed and keeps monitoring
        files updated.

Commission’s Response

The Commission stated its existing policies, and also requested that the finding be withdrawn
because it has on file copies of the worksheets and a sample of information that was reviewed
during monitoring visits.

Auditor’s Comment.

The Commission’s response did not address the deficiencies noted in the finding. The
Corporation should take the recommended actions.


Finding 2. Inadequate Controls Over Approval and Payment of Subgrantee Costs

The Commission’s program officer, responsible for monitoring the activities of the
subgrantees, is also responsible for reviewing and approving payments to subgrantees. Our
review of subgrantees’ costs claimed showed that adequate supporting documentation was
not always provided to the Commission so that it could determine the allowability and
allocability of costs claimed. The claims were, however, approved for payment. Segregation
of duties in processing payments to subgrantees would help the Commission ensure that costs
claimed are supported.

Criteria

The AmeriCorps Grant Provisions, Section V.B., General Provisions, Financial
Management Standards, states in part, “1. General. The grantee must maintain financial
management systems that include standard accounting practices, sufficient internal controls,
a clear audit trail and written cost allocation procedures, as necessary.”

Title 45 CFR § 2541.200, Standards for financial management systems, states in part, “(3)
Internal control. Effective control and accountability must be maintained for all grant and
subgrant cash, real and personal property, and other assets. Grantees and subgrantees must
adequately safeguard all such property and must assure that it is used solely for authorized
purposes.”




                                              8
Furthermore, for non-profit organizations such as the subgrantees, 45 CFR § 2543.21,
Standards for financial management systems, states in part, “(3) Effective control over and
accountability for all funds, property and other assets. Recipients shall adequately safeguard
all such assets and assure they are used solely for authorized purposes.”

Recommendations

We recommend that the Corporation ensure that the Commission:

   2. Incorporates into its policies and procedures the segregation of duties so that payment
      requests are reviewed by someone other than the program officer, and follows the
      enhanced policies and procedures.

Commission’s Response

The Commission stated that it has segregated the duties of personnel involved in the payment
process.

Auditor’s Comment

The Corporation should review the actions taken by the Commission to ensure that its new
protocol, dated November 30, 2007, and included in the Commission’s response as
Attachment I, is implemented.

Finding 3. Lack of Adequate Procedures to Ensure that all Program Compliance
           Requirements were Followed

Unsupported Claimed Costs: Our review of the other direct costs by subgrantees showed
that Fargo credit card expenditures, totaling $8,580, were not adequately documented.
General ledger postings provided the only supporting documentation for these expenditures.
The subgrantee was unable to provide credit card statements, receipts, or invoices to support
these charges in time for our review. The Commission’s program officer did not perform the
required procedures specified in the monitoring plan that would have detected, and provided
a means for early correction of this condition. As a result, we questioned costs of $8,580.

Criteria

The Commission’s site visit fiscal review work paper, Section III, Allowable/Unallowable
Costs requires that the monitor obtain from the subgrantee cancelled checks, invoices, or
timesheets for the expenditures.

The AmeriCorps Grant Provisions, Section V.B., General provisions, Financial Management
Standards, states in part:

       1. General. The grantee must maintain financial management systems that
       include standard accounting practices, sufficient internal controls, a clear

                                              9
       audit trail and written cost allocation procedures, as necessary. Financial
       management systems must be capable of distinguishing expenditures
       attributable to this grant from expenditures not attributable to this grant.
       The systems must be able to identify costs by programmatic year and by
       budget category and to differentiate between direct and indirect costs or
       administrative costs.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A., General
Principles, paragraph A.2, Factors affecting allowability of costs, states that costs must:

       a. Be reasonable for the performance of the award and be allocable
          thereto under these principles.

       b. Conform to any limitations or exclusions set forth in these principles
          or in the award as to types or amount of cost items.

       c. Be consistent with policies and procedures that apply uniformly to
          both federally-financed and other activities of the organization.

       d. Be accorded consistent treatment.

       e. Be determined in accordance with generally accepted accounting
          principles (GAAP).

       f. Not be included as a cost or used to meet cost sharing or matching
          requirements of any other federally-financed program in either the
          current or a prior period.

       g. Be adequately documented.

Recommendation

We recommend that the Corporation:

   3.a. Ensure that the Commission provides training to subgrantees to improve record
        keeping systems, such that charges to grants are supported and that documentation
        is retained and readily accessible. The Corporation should follow up to determine
        whether the training was effective.

   3.b. Disallow and recover the $8,580, plus applicable administrative costs.

Commission’s Response

The Commission provided a list of prior training sessions. It questioned why the auditors
would request credit card receipts that it would not use, and requested the removal of the
finding.

                                              10
Auditor’s Comment

The Commission did not address the deficiencies discussed in the finding. The OIG, in its
award notification letter, advised the Commission that documents supplied late would be
handled in the resolution process. The auditors and the OIG also reemphasized, in the
entrance conference, that data provided late would not be considered by the auditors. The
credit card information was not in the files at the time the auditors visited, but was provided
weeks after the auditors gave the subgrantee an opportunity to provide the receipts. The
auditors and the OIG explained again at the exit conference that the credit card information
was delivered too late and would be analyzed during the resolution process. The credit card
receipts delivered late were forwarded to the Corporation via the OIG. The Corporation
should take the recommended actions.

Missing End of Term Evaluations: Our review of 44 member files found that 5
Cooperstown member files lacked end-of-term evaluation forms. The program officer said
the end-of-term evaluations were prepared and sent to members for their signatures, but that
the program officer forgot to collect the evaluations from members. Without final
evaluations, the subgrantee may not be able to determine whether a member satisfactorily
completed his or her term of service, is eligible for an education award, or eligible to serve a
second term.

Criteria

The AmeriCorps Grant Provisions, Section IV.D., AmeriCorps Special Provisions, Training,
Supervision and Support, states in part, “6. Performance Reviews. The grantee must conduct
and keep a record of at least a midterm and end-of-term written evaluation of each member's
performance for Full and Half-Time members and an end-of-term written evaluation for less
than Half-time members.”

In accordance with 45 CFR § 2522.220 (c), Eligibility for second term, states:

       A participant will only be eligible to serve a second or additional term of
       service if that individual has received satisfactory performance review(s)
       for any previous term(s) of service in accordance with the requirements of
       paragraph (d) of this section. Mere eligibility for a second or further term
       of service in no way guarantees a participant selection or placement.

Recommendation

We recommend that the Corporation:

   3.c. Ensure that the Commission communicates to its subgrantees procedures that must
        be followed to comply with the end-of-term evaluation requirements of the grant
        provisions. The Corporation should follow up to verify that required evaluations
        were completed for all members.

                                               11
Commission’s Response

The Commission provided information on policy and related training sessions conducted
previously and believed that it had taken the steps that would ensure compliance. It
requested the removal of this finding.

Auditor’s Comment

The Commission did not address the deficiencies discussed in the finding. It addressed prior
training and existing policy, but proposed no new actions. We are concerned that, although
evaluations were not prepared, or were missing, the Commission is satisfied that it needs to
take no new corrective action to ensure compliance with regulations and the AmeriCorps
Provisions. The Corporation should take the recommended actions.

Lack of Orientation Documentation: Our review of 44 member files showed that there
were no New Member Orientation sign-in sheets for 12 Cooperstown members. The
established policies for documenting member orientation were not always followed prior to
program year 2007-2008. As a result of a monitoring visit, the subgrantee now complies
with the documentation requirements for orientation. Therefore, a recommendation is
unnecessary.

Late submission of Change of Status, and Exit and Enrollment Forms: Our review of
44 member files showed that Cooperstown submitted forms after the due dates, as follows:

   •    one change of status form
   •    three exit forms
   •    eight enrollment forms

Erroneous member status may affect the computation of service hours for successful
completion of the program and eligibility for education awards. Late submission of exit and
enrollment forms would not allow the Commission to properly review, track, and monitor a
subgrantee’s activities and accomplishment of the objectives of the AmeriCorps program.
Timely submission of reports would assist the Commission to monitor and correct errors in
the submitted forms.

Criteria

The AmeriCorps Grants Provisions, Section IV.N., AmeriCorps Special Provisions,
Reporting Requirements, states in part:

       2. AmeriCorps Member-Related Forms. The grantee is required to submit
       the following documents to the National Service Trust at the Corporation on
       forms provided by the Corporation. Grantees and sub-grantees may use
       WBRS to submit these forms electronically. Programs using WBRS must
       also maintain hard copies of the forms.

                                              12
         a. Enrollment Forms. Enrollment forms must be submitted no later than
         30 days after a member is enrolled.

         b. Change of Status Forms. Member Change of Status Forms must be
         submitted no later than 30 days after a member’s status is changed. By
         forwarding Member Change of Status Forms to the Corporation, State
         Commissions and Parent Organizations signal their approval of the
         change.

         c. Exit/End-of-Term-of-Service Forms. Member Exit/End-of-Term-of-
         Service Forms must be submitted no later than 30 days after a member
         exits the program or finishes his/her term of service.

Recommendation

We recommend that the Corporation:

   3.d. Ensure that the Commission requires the subgrantees to implement adequate
        policies and procedures that would ensure that the members’ forms are reported in a
        timely manner and meet the requirements of the grant.

Commission’s Response

The Commission discussed the results of its prior monitoring reviews, in which it found
checklists in the members’ files that were reviewed. It requested removal of the finding from
the report.

Auditor’s Comment

The Commission did not address the deficiencies noted in the finding. The checklist
provides no assurance that forms are submitted by the due dates. The Corporation should
take the recommended action.


Service Hours were recorded by Applicants Before Fully Enrolled as Members: Our
review of 44 member files found that 2 Fargo applicants began serving and recording service
hours before they had signed member contracts. The contracts’ start date was April 29, 2005,
however, the applicants began recording service hours on April 4, 2005. We did not question
the education awards because the members served sufficient hours after the contracts were
signed.

Applicants do not become members until they sign AmeriCorps contracts. Applicants who
record service time before contracts are in place may receive benefits, living allowances, and
education awards and interest forbearance to which they are not entitled.



                                              13
Criteria

The AmeriCorps Grant Provisions, Section IV.C., AmeriCorps Special Provisions, Member
Enrollment, states in part:

   1. Member Enrollment Procedures.

       a. An individual is enrolled as an AmeriCorps member when all of the
          following have occurred:

           i.     He or she has signed a member contract;
           ii.    The program has verified the individual's eligibility to serve;
           iii.   The individual has begun a term of service; and
           iv.    The program has approved the member enrollment form in WBRS.

       b. Prior to enrolling a member in AmeriCorps, programs make
          commitments to individuals to serve. A commitment is defined as
          signing a member contract with an individual or otherwise entering
          into a legally enforceable commitment as determined by state law.

   2. AmeriCorps Members. The grantee must keep time and attendance records
   on all AmeriCorps members in order to document their eligibility for in-
   service and post service benefits. Time and attendance records must be signed
   and dated both by the member and by an individual with oversight
   responsibilities for the member.

Recommendation

We recommend that the Corporation:

   3.e. Ensure that the Commission permits only members, meeting the criteria of an
        AmeriCorps member, to record hours of service and follow up to ensure
        compliance.


Commission’s Response

The Commission discussed its existing policies and procedures, monitoring reviews, and
prior training. The Commission is assured, through these previous actions, that subgrantees
understand the legal requirements of a member contract. It also requested removal of this
finding.

Auditor’s Comment

We are concerned that the Commission is assured, through its prior actions, that the
subgrantee understands the legal requirements of a member contract. It proposes no new

                                              14
action, although hours were wrongly recorded. The Corporation should take the
recommended action.


This report is intended for the information and use of the Office of Inspector General,
Corporation management, the Commission, and the U.S. Congress. However, this report is a
matter of public record and its distribution is not limited.




Regis & Associates, PC
December 18, 2007




                                           15
Appendix A – North Dakota Workforce Development Council - State Commission on
             National and Community Service’s Response to the Draft Report
February 15, 2008




Ms. Carol Bates
Assistant Inspector General for Audit
Corporation for National and Community Service
Office of Inspector General
1201 New York Avenue, NW, Suite 830
Washington, DC 20525

Dear Ms. Bates:

Thank you for the opportunity to respond to the draft report on the Inspector General’s Agreed-
Upon Procedures of Corporation for National and Community Service (Corporation) Grants
Awarded to the North Dakota Workforce Development Council – State Commission on National
and Community Service (State Commission).

The State Commission is committed to administering the very best AmeriCorps programs
possible and is fully committed to providing effective management, control and accountability
for all grant and sub grant funding, real and personal property and other assets.

During the process of conducting the on-site work by Regis & Associates, PC, the State
Commission learned some valuable lessons which we intend to follow in future OIG audits. This
includes making sure that the requests for documents and copies by the auditor are in writing and
that we maintain a log of documents and copies supplied to the auditor.

The following is our response to the findings and recommendations contained in the “draft”
report.

Findings and Recommendations:

       1.     Commission Monitoring Procedures were not Fully Performed, or Results were
              not always documented.

              Recommendation:
              We recommend that the Corporation ensure and verify that the Commission:

      1. a.   Follows its internally developed guidelines for sub grantees and performs the
              procedures required by its guidelines.

      Response: The State Commission fully agrees that onsite monitoring is a tool that
      provides sub-grantees with timely feedback or advice for administering the sub-grants,
      and increases the likelihood that costs are claimed in accordance with grant provisions
      and cost principles.

      The State Commission, per our Policy 1-04-04(0) adopted on January 7, 2004, conducts
      at a minimum one program and one financial monitoring visit for each sub-grantee
      annually. The worksheet used documents the samples reviewed and the documents
      reviewed to support the findings.

      Review protocol is as follows:
      • Obtain a general ledger printout of costs charged to the AmeriCorps project by the
         sub-grantee. The general ledger must contain, at least, the name of the vendor, the
         date of the transaction, the check number (or EFT notification) and the amount
         incurred.
      • In reviewing the general ledger’s total amount booked it is compared to WBRS
         financial reports. This is done to determine if items were booked but not claimed or if
         items were claimed but not booked. Transactions captured on this general ledger
         printout must be listed by individual transaction.
      • A sample of checks from this general ledger printout is selected for review. If the
         number of transactions is few then all transactions are selected for review. During the
         review the supporting documentation is reviewed for the determination of
         allowability of the transaction. If the determination was made that the item purchased
         is allowable a review of the bank statement is made to assure the transaction was not
         voided out later.

          The State Commission has on files copies of the worksheets and sample of
          information that was reviewed related to the sub grantee program and financial
          monitoring review.


Based on the supporting information, this part of the finding should be removed from the
record.

       1. b. Documents the results of monitoring procedures performed and keep
             monitoring files updated.

      Response: The State Commission on April 19, 2006, adopted Policy 1-28-06(0)
      “Member File Checklist”. The sub-grantee must respond to all the items on the checklist.
      The member file must include all documentation to support the sub-grantees “yes”
       responses and, when applicable, provide documentation to support the sub-grantees “In
       the Program Files” responses.

       Currently, as part of the programmatic reviews, members are randomly selected from the
       previous year to determine if their files contain things such as exit evaluations. If this is
       determined to have occurred for a member it is reported in the monitoring tool, and to the
       sub-grantee. All project coordinators are made aware that no member can serve a second
       term without a successful first year exit evaluation.

       Orientation documentation is reviewed to see that all member files selected for review
       received a member orientation at the beginning of their term. Most sub-grantees do a
       group member orientation at the beginning of the grant year. During the group orientation
       the project coordinators have the members complete a sign-in sheet. For those members
       who enroll after the group orientation an individual orientation is conducted. This is
       noted on their timesheets that they received the orientation. There is no provision that
       requires all members to sign an individual training document for the orientation. Since
       the member and site supervisor and / or project coordinator sign the member’s timesheet,
       thus approving the occurrence of the activity listed on the timesheet, this process should
       be acceptable documentation for the orientation having occurred.

       Since orientation has taken on a different format by each sub grantee the State
       Commission will consider adoption of Policy on Member Orientation which will identify
       the minimum standard elements to be covered by orientation and require as part of the
       member file a signed Member Orientation checklist to verify that the orientation was
       provided and date it was completed.

Based on the supporting information, this part of the finding should be removed from the
record.

       2.      Inadequate Controls over Approval and Payment of Sub-grantee Costs

We recommend that the Corporation ensure and verify that the Commission:

       2. a.   Incorporates into its polices and procedures segregation of duties so that
               payment requests are reviewed by someone other that the Program Officer,
               and follows the enhanced policies and procedures.

Response: We do have issues with the terminology “Inadequate Controls.” We do concur with
the segregation of duties. ATTACHMENT I summarize the current procedure for
segregation of duties related to the verification and approval of payments of requests for
reimbursement by sub grantees. Within the division of workforce development the initial review
and approval will be done by the Grants/Contract Officer with final review and approval
completed by the Program Officer. If either the Grants/Contact Officer or Program Officer is not
available the final review and approval will be done by the division director.
The State Commission concurs with the lack of segregation of duties statement but believes
the wording “inadequate” is in appropriate title of the finding and should be more
appropriately worded as “lack of segregation of duties…” Inadequate notes the State
Commission has poor or inefficient controls which is not evident.

      3.     Lack of Adequate Procedures to ensure that all Program Compliance
             Requirements were followed.

Recommendation:

      3.a.   Ensure that the Commission provides training to sub grantees to improve
             record keeping systems, such as charges to grants are supported and that
             documentation is retained and readily accessible. The Corporation should
             follow up to determine whether the training was effective.

      Response: Financial Training has been identified as an area of need and special
      emphasis during our PDAT training needs survey. The State Commission has taken steps
      to address the financial and record keeping training was provided to sub grantees. The
      State Commission has records showing that financial trainings were provided on the
      following dates:
      ► January 12, 2005 - Project Coordinator’s on the types of costs that are claimed as
          program operating, member costs and administrative costs. The differences between
          cash and in-kind match and the requirements for in-kind documentation were
          reviewed.
      ► July 28, 2005, - Project Coordinator’s training on how to determine if a cost is a
          program operating cost or an administrative cost. Also covered was how to value in-
          kind costs.
      ► June 15, 2006 - Project Coordinator’s training on the tools the State Commission uses
          for programmatic and fiscal reviews. Covered was what the State Commission needs
          for a general ledger printout that details the check number / EFT transaction, the
          amount, date and to whom the payment was made to. Also covered were the
          supporting documents to determine if expenditures are allowable and the bank
          statements to make sure the transaction was executed.
      ► September 7, 2006 - Project Coordinator’s training on the “AmeriCorps Fiscal –
          North Dakota Guide” that was developed by the State Commission. This guide
          carefully explains how to capture value and record all costs claimable under the
          AmeriCorps program.
      ► June 21, 2007 - Cross Stream Event on using Excel to budget and analyze
          AmeriCorps project costs. Also covered were what expenditures are allowable and
          unallowable and how the expenditures should be classified.
      ► October 17, 2007 - Project Coordinator’s training on how to build an AmeriCorps
          budget. Reviewed were what costs are allowable costs and how to budget
          appropriately for those said costs.

      All trainings are followed up with surveys about the effectiveness of the trainings that are
      completed by the attendees and the State Commission considers heavily the responses
      obtained by these surveys in development and presentation of new trainings. The
      effectiveness of the training is also considered based on results of program and financial
      monitoring reviews.

Based on the supporting information, this part of the finding should be removed from the
record.


      3. b.   Disallow and recover the $8,580, plus applicable administrative costs.

      Response: During their on-site visit at the Fargo Moorhead Family
      YMCA, Regis was provided a binder that included copies of credit card charge receipts.
      They again were provided to Regis staff on December 5, 2007, via e-mail from Ms. Jill
      Deitz. The supporting documents were available for review and were supplied to the
      Auditor. None of the supporting documents provided to the auditor are documents that
      could have been created after the fact. The exit conference with the sub grantee did not
      identify issues with missing or lack of documentation. If the exit conference had
      identified missing documentation it could have been cleared up on-site.

      The State Commission has on files copies of the supporting documentation that was
      Available during the on-site review and provided to Regis by email after the on-site
      review was completed. We do not understand why Regis would request copies of the
      documents and then choose to disregard them in their recommendations.

      The full $8,580.16 is accounted for and supported. The $8,580.16 should be allowed.

      3. c.   Ensure that the Commission communicates to its sub-grantees procedures
              that must be followed to comply with the end-of-term evaluation
              requirements of the grant provisions. The Corporation should follow up to
              verify the required evaluations were completed for all members.

      Response:

      The Member Checklist must be included in the members file according to the April 19,
      2006, adopted Policy 1-28-06(0) “Member File Checklist.” In January 2005 Amy
      Thompson of CAC Consulting presented for 2 days on AmeriCorps requirements and
      provisions in which final evaluations were discussed. Following this training the State
      Commission set up a series of conference calls between the sub grantees and Amy
      Thompson. One of the topics was member retention and recognition in which Ms.
      Thompson discussed the importance of a final evaluation. Again in June 2006 Ms.
      Thompson presented on Member Management and Support & Recruiting and Managing
      Volunteers in which final evaluations were discussed. Also at this event the State
      Commission’s Program Officer developed an “AmeriCorps Program – ND Guide” in
      which final evaluations are discussed. This came from the State Commission’s adoption
      of the policy concerning the member checklist. In October 2007 the project coordinators
      attended a training in which there was a discussion about the member service term policy.
      It was clarified that if a member served as an AmeriCorps or VISTA member that in
      order for them to serve again they needed, amongst all things, a successful final
      evaluation in order to serve another term. We believe that we have taken steps to ensure
      that the Commission communicates with sub grantees procedures which must be
      followed to comply with end-of-term evaluation and requirements of the grant provisions.
      This is a part of the Program Monitoring which annually all sub grantees are subject to.

Based on the supporting information, this part of the finding should be removed from the
record.

      3. d.   Ensure that the Commission requires the sub grantees to implement
              adequate policies and procedures that would ensure that the members’ forms
              are reported in a timely manner and meet the requirements of the grants.

      Response:

      Again, Policy 1-28-06(0) “Member File Checklist” states the required member forms that
      are needed and how / where they need to be maintained. This checklist is required to be
      in the members file at all times. This is a part of the annual sub grantee Program
      Monitoring reviews. For the 2006-07 program year, this checklist was found in each of
      the members files that were chosen for review.

Based on the supporting information, this part of the finding should be removed from the
record.

      3. e.   Ensure that the Commission permits only members, meeting the criteria of
              an AmeriCorps member, to record hours of service and follow up to ensure
              compliance.

      Response:

      The State Commission regularly communicates with sub grantees requirements that only
      members, meeting the criteria for an AmeriCorps member, is allowed to record hours of
      service. We agree with the auditors statement that any hours logged before the member
      officially started the member service time is not used in determining member’s eligibility
      for an education award. Through the annual program monitoring reviews, the trainings
      already sited, and offered the State Commission is assured that sub grantees understand
      the legal requirements of a contract and what services and time can be counted towards a
      successful completion of a member’s service.

Based on the supporting information, this part of the finding should be removed from the
record.

Overall Response:
Be assured the State Commission will continue its emphasis on providing sub grantees with
technical assistance and training to insure that they are able to hlly comply with the contact and
grant requirements of the AmeriCorps program. The State Commission will continue to
communicate all the topics questioned within this report to its sub-grantees to illustrate the
importance of being in compliance with the AmeriCorps rules and provisions. We intend to
continue our annual program and financial monitoring of each sub grantee annually to insure that
North Dakota operates a program which is an example and a standard for the country.

It is our belief the items listed in points 1 and 3 have been and will continue to be addressed with
sub-grantees to assure the Corporation of the State Commission's projects compliance with the
AmeriCorps rules and provisions.

Again, thank you for the opportunity to respond.

Sincerely,           -




Director

Enclosures:              Attachment I
                                                                             ATTACHMENT I

November 30, 2007




TO:           Lavonne Stair                        Michelle Halone
              Office Manger                        Accounting Budget Specialist I

              Jerry Houn                           Ryan Volk
              Senior Program Officer               Grants/Contract Officer


FROM:         James J. Hirsch
              Division Director


SUBJECT:      Procedures for processing AmeriCorps Sub-Grantee Requests for Reimbursement

The following procedure will be followed in processing all Sub-Grantee Requests for
reimbursement.

   1. All requests for reimbursement will be submitted on form “NORTH DAKOTA
      AMERICORPS*STATE PROGRAM REQUEST FOR ADVANCE OR
      REIMBURSEMENT FORM” and follow the instructions developed for the request.
   2. Sub-Grantee’s will submit the “NORTH DAKOTA AMERICORPS*STATE
      PROGRAM REQUEST FOR ADVANCE OR REIMBURSEMENT FORM” in signed
      hard copy at times established by the ND Department of Commerce Office Manager
      which will allow sufficient time to process the reimbursements and have a direct deposit
      completed by the 1st and 15th of each month.
          a. Sub-Grantees may submit the “NORTH DAKOTA AMERICORPS*STATE
              PROGRAM REQUEST FOR ADVANCE OR REIMBURSEMENT FORM” by
              e-mail to allow additional time to process the reimbursement, but under no
              circumstances will the request for reimbursement be finalized until the signed
              hard copy of the request has been received and gone through the approval process.
   3. At the time that the Department of Commerce Administrative Support Section receives a
      “NORTH DAKOTA AMERICORPS*STATE PROGRAM REQUEST FOR ADVANCE
      OR REIMBURSEMENT FORM” the form will immediately be provided to the
      Accounting Budget Specialist I for processing with a copy provided simultaneously to the
      Division of Workforce Development, Grants and Contract Officer and/or Senior
      Program Officer for review.
   4. Both the Accounting Budget Specialist I and either the Grants/Contract Officer or Senior
      Officer will check the “NORTH DAKOTA AMERICORPS*STATE PROGRAM
      REQUEST FOR ADVANCE OR REIMBURSEMENT FORM” to insure reasonableness
    and that the match requirements are being met and that the sub-grantee account will not
    be overdrawn.
5. The “NORTH DAKOTA AMERICORPS*STATE PROGRAM REQUEST FOR
    ADVANCE OR REIMBURSEMENT FORM” once processed and signed off on by both
    the Accounting Budget Specialist I and the Grants/Contract Officer will be forwarded to
    the Senior Program Officer for final review and signoff.
        a. If the Senior Program Officer completes the initial review and sign off, the
            “NORTH DAKOTA AMERICORPS*STATE PROGRAM REQUEST FOR
            ADVANCE OR REIMBURSEMENT FORM” will then be provided to the
            Division Director or his designee for final review and sign-off.
6. The Senior Program Officer, the Division Director, or his designee, will transmit the
    signed “NORTH DAKOTA AMERICORPS*STATE PROGRAM REQUEST FOR
    ADVANCE OR REIMBURSEMENT FORM” to the Accounting Budget Specialist III
    for coding.
7. Once the Accounting Budget Specialist III codes the “NORTH DAKOTA
    AMERICORPS*STATE PROGRAM REQUEST FOR ADVANCE OR
    REIMBURSEMENT FORM” it is then provided the Administrative Staff Officer for data
    entry input into the OMB automated system for payment.
8. Any questions that may arise in the process of approving payment of the “NORTH
    DAKOTA AMERICORPS*STATE PROGRAM REQUEST FOR ADVANCE OR
    REIMBURSEMENT FORM” will be immediately handled by phoning the sub grantee
    for clarification or is the issues involves compliance, in writing.
9. Any decisions to withhold payment will require a written notification to the sub grantee
    stating the reason for withholding payment, corrective action required and timeline for
    completion of the corrective action.
10. Processed “NORTH DAKOTA AMERICORPS*STATE PROGRAM REQUEST FOR
    ADVANCE OR REIMBURSEMENT FORM” will be kept on file with the
    Administrative Section of the North Dakota Department of Commerce.
11. A Copy of the “NORTH DAKOTA AMERICORPS*STATE PROGRAM REQUEST
    FOR ADVANCE OR REIMBURSEMENT FORM” reviewed by staff of the Workforce
    Development Division will be filed in the sub grantee Contract File.
Appendix B – Corporation for National and Community Service’s Response to the
             Draft Report
To:            Carol Bates, Assistant Inspector General for Audit

From:          Margaret Rosenberry, Director of Grants Management /by

Cc:            Kristin McSwain, Director of AmeriCorps
               Sherry Blue, Audit Resolution Coordinator

Date:          February 22, 2008

Sub:           Response to OIG Draft of Agreed-Upon Procedures of Grants Awarded to North
               Dakota Workforce Development Council – State Commission on National and
               Community Service
               __________________________________________________________________

Thank you for the opportunity to review the draft Agreed-Upon Procedures report of the
Corporation’s Grants Awarded to North Dakota Workforce Development Council – State
Commission on National and Community Service.

The Office of Grants Management does not have specific comments at this time. The
Corporation will address all of the findings during audit resolution after the audit is issued as
final.
